14668                                 Federal Register / Vol. 68, No. 58 / Wednesday, March 26, 2003 / Notices

Proposed Project: Maternal and Child                                      The proposed revisions follow and                          direct web entry. Web based data and
Health Services Title V Block Grant                                       build on extensive consultation received                   text entry will provide for automatic
Program—Guidance and Forms for the                                        from a Workgroup convened in 2002 to                       calculation of ratios, rates, and
Title V Application/Annual Report                                         provide suggestions for improving the                      percentages, carry data over year-to-
(OMB No. 0915–0172)—Revision                                              guidance and forms. The proposed                           year, and assure that data used in
                                                                          revisions are editorial and technical                      multiple tables are entered only once. It
  The Health Resources and Services                                       revisions in nature, and are based on the                  will also facilitate the orderly printing
Administration (HRSA) proposes to                                         experience of the States and                               of tables, text, and required appendices.
revise the Maternal and Child Health                                      jurisdictions using previous versions of
Services Title V Block Grant Program—                                     the guidance. Changes include                                The guidance used annually by the 50
Guidance and Forms for the                                                consolidating the narrative to reduce                      States and 9 jurisdictions had a previous
Application/Annual Report. The                                            redundancy, and reducing the number                        estimated burden of 358 hours. Based
guidance is used annually by the 50                                       of Health Status Indicators (HSI)                          on the new revisions and more efficient
States and 9 jurisdictions in making                                      required in the application/annual                         electronic submission, the estimated
application for Block Grants under Title                                  report.                                                    burden has been reduced by 5% to 322
V of the Social Security Act, and in                                        In addition, HRSA proposes changing                      hours. The estimated response burden is
preparing the required annual report.                                     the format for electronic submission to                    as follows:

                                                                                                                                     Responses
                                                                                                                       Number of                      Burden hours   Total burden
                                               Type of form                                                                              per
                                                                                                                      respondents                     per response      hours
                                                                                                                                     respondent

Application and Annual Report, with needs assessment *:
    States ........................................................................................................             50                1            428         21,400
    Jurisdictions ..............................................................................................                 9                1            228          2,052
Application and Annual Report, without needs assessment *:
    States ........................................................................................................             50                1            313         15,658
    Jurisdictions ..............................................................................................                 9                1            126          1,134
  * The Application and Annual Report, with needs assessment, will be submitted in FY 2005. The Application and Annual Report, without needs
assessment, will be submitted in FY 2003 and FY 2004. The average annual total burden hours for the next three years is 19,007. The average
annual burden per respondent 322 hours.


  Written comments and                                                    are invited to send comments to the                          Average Burden Per Response: 32
recommendations concerning the                                            address indicated below regarding this                     hours.
proposed information collection should                                    burden estimate or any other aspect of                       Total Annual Hours: 2,744 hours.
be sent within 30 days of this notice to:                                 this collection of information, including                  FOR FURTHER INFORMATION CONTACT: To
John Morrall, Human Resources and                                         (1) the necessity and utility of proposed                  obtain copies of the supporting
Housing Branch, Office of Management                                      information collection for the proper                      statement and any related forms for the
and Budget, New Executive Office                                          performance of the OIG’s functions; (2)                    proposed paperwork collections
Building, Room 10235, Washington, DC                                      the accuracy of the estimated burden;                      referenced above, e-mail your request,
20503.                                                                    (3) ways to enhance the quality, utility,                  including your address and phone
  Dated: March 19, 2003.                                                  and clarity of the information to be                       number, to John Bettac, Office of
Jane M. Harrison,
                                                                          collected; and (4) the use of automated                    Investigations (Jbettac@oig.hhs.gov), or
                                                                          collection techniques or other forms of                    call (202) 619–3557.
Director, Division of Policy Review and
Coordination.
                                                                          information technology to minimize the
                                                                                                                                     DATE: To assure consideration, public
                                                                          information collection burden.
[FR Doc. 03–7089 Filed 3–25–03; 8:45 am]                                                                                             comments must be delivered to address
                                                                          SUPPLEMENTARY INFORMATION:
BILLING CODE 4165–15–P                                                                                                               provided below by no later than 5 p.m.
                                                                             Type of Information Collection                          on May 27, 2003.
                                                                          Request: Reinstatement of an expired
                                                                          collection.                                                ADDRESSES: Written comments and
DEPARTMENT OF HEALTH AND                                                                                                             recommendations for proposed
HUMAN SERVICES                                                               Title of Information Collection: State
                                                                          Medicaid Fraud Control Units’                              information collections should be
Office of Inspector General                                               Recertification Application and Annual                     mailed or delivered to the following
                                                                          Report as required by 42 CFR 1007.15                       address: Office of Inspector General,
Agency Information Collection                                             and 1007.17. (Previously approved by                       Department of Health and Human
Activities: Proposed Collection and                                       the Office of Management and Budget                        Services, Attention: John Bettac, Room
Comment Request (OIG–319–N)                                               under control number 0990–0162.)                           5453, Cohen Building, 330
                                                                             Use: The information contained in the                   Independence Avenue, SW.,
AGENCY: Office of Inspector General                                       annual reports and recertification                         Washington, DC 20201.
(OIG), HHS.                                                               application is required for certification                    We do not accept comments by
ACTION: Notice.                                                           and yearly recertification by the OIG to                   facsimile (FAX) transmission. In
                                                                          ensure that federal matching funds are                     commenting, please refer to file code
SUMMARY: In compliance with the                                           only expended for allowable costs, and                     OIG–319–N. Comments received timely
requirements of section 3506(c)(2)(A) of                                  to determine if a state unit needs                         will be available for public inspection as
the Paperwork Reduction Act of 1995,                                      financial assistance.                                      they are received beginning
the Office of Inspector General (OIG) is                                     Frequency: Annually.                                    approximately 3 weeks after publication
publishing for public comment the                                            Affected Public: State government.                      of a document in Room 5541 of the
following summary of proposed                                                Annual Number of Respondents: 48.                       Office of Inspector General at 330
collection activities. Interested parties                                    Total Annual Responses: 48.                             Independence Avenue, SW.,
                                      Federal Register / Vol. 68, No. 58 / Wednesday, March 26, 2003 / Notices                                                                                      14669

Washington, DC on Monday through                                            Institutes of Health (NIH) has submitted                        Use of Information Collection: This
Friday of each week from 8:30 a.m. to                                       to the Office of Management and Budget                          study will be used by the NIH to
4:30 p.m.                                                                   (OMB) a request for review and                                  evaluate risk factors for chronic disease
  Dated: March 20, 2003.                                                    approval of the information collection                          among older women by developing and
Brian P. Carman,                                                            listed below. This proposed information                         following a large cohort of
Chief Information Officer.
                                                 collection was previously published in                          postmenopausal women and relating
                                                                            the Federal Register on September 20,                           subsequent disease development to
[FR Doc. 03–7220 Filed 3–25–03; 8:45 am] 

                                                                            2002, page 59294 and allowed 60-days                            baseline assessments of historical,
BILLING CODE 4152–01–P
                                                                            for public comment. No public                                   physical, psychosocial, and physiologic
                                                                            comments were received. The purpose                             characteristics. In addition, the
DEPARTMENT OF HEALTH AND                                                    of this notice is to allow an additional                        observational study will complement
HUMAN SERVICES                                                              39 days for public comment. The                                 the clinical trial (which has received
                                                                            National Institutes of Health may not                           clinical exemption) and provide
National Institutes of Health                                               conduct or sponsor, and the respondent                          additional information on the common
                                                                            is not required to respond to, an                               causes of frailty, disability and death for
National Heart, Lung, and Blood                                             information collection that has been                            postmenopausal women, namely,
Institute; Submission for OMB Review;                                       extended, revised or implemented on or                          coronary heart disease, breast and
Comment Request, Women’s Health                                             after October 1, 1995, unless it displays                       colorectal cancer, and osteoporotic
Initiative Observational Study                                              a current valid OMB control number.                             fractures. Frequency of Response: On
SUMMARY: Under the provisions of                                               Proposed Collection: Title: Women’s                          occasion. Affected Public: Individuals
section 3507(a)(1)(D) of the Paperwork                                      Health Initiative (WHI) Observational                           and physicians. Type of Respondents:
Reduction Act of 1995, the Office of the                                    Study. Type of Information Collection                           Women, next-of-kin, and physician’s
Director, the National Heart, Lung, and                                     Request: Revision: OMB No. 0925–0414,                           office staff. The annual reporting burden
Blood Institute (NHLBI), the National                                       expiration date: 05/31/2003. Need and                           is as follows:

                                                                                                                                           Estimated                                          Estimated total
                                                                                                                          Estimated                                Average bur-
                                                                                                                                        number of re­                                         annual burden
                                          Type of respondents                                                             number of                                den hours per
                                                                                                                                         sponses per                                              hours
                                                                                                                         respondents                                 response
                                                                                                                                          respondent                                            requested

OS Participants ................................................................................................               86,886                1.4084                   0.17042                 20,855
Next-of-kin ........................................................................................................            2,916                     1                    0.0835                    243
Physician’s Office Staff ....................................................................................                      43                     1                    0.0835                      4

      Total ..........................................................................................................         89,845   ........................   ........................           21,102



   The annualized cost burden to                                            public burden and associated response                           DEPARTMENT OF HEALTH AND
respondents is estimated at $211,180.                                       time, should be directed to: The Office                         HUMAN SERVICES
There are no Capital Costs, Operating                                       of Management and Budget, Office of
Costs and/or Maintenance Costs to                                           Regulatory Affairs, New Executive                               National Institutes of Health
report.                                                                     Office Building, Room 10235,
   Request for Comments: Written                                            Washington, DC 20503, Attention: Desk                           Submission of OMB Review; Comment
comments and/or suggestions from the                                        Officer for NIH. To request more                                Request; Policies of Academic
public and affected agencies should                                         information on the proposed project or                          Institutions Regarding Tobacco
address one or more of the following                                        to obtain a copy of the data collection                         Industry Research Funding
points: (1) Evaluate whether the                                            plan and instruments, contact: Dr. Linda
proposed collection is necessary for the                                                                                                    SUMMARY: Under the provision of
                                                                            Pottern, Project Officer, Women’s Health
proper performance of the function of                                                                                                       section 3507(a)(1)(D) of the Paperwork
                                                                            Initiative Program Office, 6705
the agency, including whether the                                                                                                           Reduction Act of 1995, the National
information will have practical utility;                                    Rockledge Drive, 1 Rockledge Centre,
                                                                                                                                            Cancer Institute (NCI), the National
(2) evaluate the accuracy of the agency’s                                   Suite 300, MSC 7966, Bethesda, MD
                                                                                                                                            Institutes of Health (NIH) has submitted
estimate of the burden of the proposed                                      20892–7966, or call (301) 402–2900 or
                                                                                                                                            to the Office of Management and Budget
collection of information, including the                                    E-mail your request, including your
                                                                                                                                            (OMB) a request for review and
validity of the methodology and                                             address to: Linda_Pottern@nih.gov.
                                                                                                                                            approval of the information collection
assumptions used; (3) enhance the                                             Comments Due Date: Comments                                   listed below. This proposed information
quality, utility, and clarity of the                                        regarding this information collection are                       collection was previously published in
information to be collected; and (4)                                        best assured of having their full effect if                     the Federal Register on March 13, 2002,
minimize the burden of the collection of                                    received within 30-days of the date of                          pages 11347 and 11348 and allowed 60
information on those who are to                                             this publication.                                               days for public comment. No public
respond, including the use of
                                                                              Dated: March 13, 2003.                                        comments were received. The purpose
appropriate automated, electronic,
mechanical, or other technological                                          Jacques E. Rossouw,                                             of this notice is to allow an additional
collection techniques or other forms of                                     Lead Project Officer, Women’s Health                            30 days for public comment. The
information technology.                                                     Initiative.                                                     National Institutes of Health may not
   Direct Comments to OMB: Written                                          [FR Doc. 03–7154 Filed 3–25–03; 8:45 am]                        conduct or sponsor, and the respondent
comments and/or suggestions regarding                                       BILLING CODE 4140–01–M
                                                                                                                                            is not required to respond to, an
item(s) contained in this notice,                                                                                                           information collection that has been
especially regarding the estimated                                                                                                          extended, revised, or implemented on or
